                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A13010001                                                                   Page 1 of 1



                We assessed an allegation that a university 1 was planning to close a marine laboratory2
        that had applied for and received funding from an NSF program specifically geared to placement
        of equipment at such laboratories. 3 We contacted the university, and received a response that
        the university was committed to continuing the operations at the laboratory.

                  Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
